Washington, D.C. 20530

October 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Dexter Earl Kemp v. United States of America,
S.Ct. No. 21-5726
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 16,
2021, and placed on the docket on August 20, 2021. The government’s response is due on
October 20, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time to and
including November 19, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which was
delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.
Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5726
KEMP, DEXTER EARL
USA

ANDREW LEE ADLER
FEDERAL PUBLIC DEFENDER'S OFFICE
ONE EAST BROWARD BLVD.
STE. 1100
FORT LAUDERDALE, FL 33301
ANDREW_ADLER@FD.ORG

